Hotline Review           March 22, 2011

 Hotline Allegation Regarding the Failure
of Defense Contract Management Agency
    Philadelphia to Settle an Audit of
  a Significant Cost Accounting Change

       Report No. D-2011-6-006
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector General of the
 Department of Defense at www.dodig.mil/audit/reports or contact the Office of the
 Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax (703)
 604-8982.

 Suggestions for Future Reviews

 To suggest ideas for or to request future reviews, contact the Office of the Assistant
 Inspector General for Audit Policy and Oversight at (703) 604-8760
 (DSN 664-8760) or fax (703) 604-8982. Ideas and requests can also be mailed to:


                          Office of the Assistant Inspector General
                               for Audit Policy and Oversight
                       Inspector General of the Department of Defense
                             400 Army Navy Drive (Room 833)
                                 Arlington, VA 22202-4704




Acronyms
DCAA         Defense Contract Audit Agency
DCMA         Defense Contract Management Agency
FAR          Federal Acquisition Regulation
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFE NSE
                                    400 ARMY NAVY DRIVE                     MAR 22 2011
                               ARLIN GTON. VIRGINIA 22202-4704




MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT: Hotline Allegation Regarding the Failure of Defense Contract Management Agency
         Philadelphia to Settle an Audit of a Significant Cost Accounting Cbange
         (Report No . D-201l-6-006)

        We are providing this report for your information and use. We reviewed a DOD Hotline
complaint and substantiated the allegation that a Defense Contract Management Agency
(DCMA) contracting officer failed to take appropriate action on a 2002 Defense Contract Audit
Agency (DCA A) report. We determined that the contracting officer failed to take any substantial
action to either reach a settlement with the contractor or make a unilateral determination.
Consequently, the contracting officer jeopardized the Government's ability to recoup
$7.4 million. Tn August 2010, we issued a Notice of Concern to the Director, DCMA,
recommending that the agency take several immediate actions in response to our findings. As a
result, DCMA took several actions including undertaking an agency-wide initiative to identify
and take corrective action on other instances where contracting officers have not taken timely
and appropriate action in response to DCAA audit reports.

         In preparing this report, we considered management comments and actions in response to
the August 20 I 0 Notice of Concern that we issued to the Director, Defense Contract
Management Agency. The management comments conformed to the requirements of DoD
Directive 7650.3; therefore, additional comments are not required and we are issuing this report
in final form .

      We appreciate the courtesies extended to our staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), ""             1 ~"'-'-'====
                                                          C""31,,,,'0'-,l




                                   Randolph R. Stone, SES
                                   Deputy Inspector General
                                     Policy and Oversight
               Results in Brief: Failure of Defense
               Contract Management Agency
               Philadelphia to Settle an Audit of a
               Significant Cost Accounting Change

What We Did                                           Management Actions
                                                      Following the issuance of our Notice of
We reviewed a DOD Hotline complaint
                                                      Concern, DCMA took several actions in
alleging that a contracting officer at Defense
                                                      response to our findings. The contracting
Contract Management Agency (DCMA),
                                                      officer reinstated the audit report in the
Philadelphia, was negligent in addressing a
                                                      contract audit follow-up system.           On
Defense Contract Audit Agency (DCAA)
                                                      October 25, 2010, the contracting officer
report which stated that a DOD contractor
                                                      issued a final decision on the cost
owed the Government approximately $7.4
                                                      accounting change and took action to
million.
                                                      recover $6.4 million owed to the
                                                      Government. DCMA reduced the DCAA
What We Found                                         reported amount due of $7.4 million to $6.4
We substantiated the allegation that a                million, and we took no exception to the
DCMA contracting officer failed to take               reduced amount. The Commander, DCMA
appropriate action on a 2002 DCAA report,             Philadelphia, evaluated all audit reports
which stated that a DOD contractor owed               assigned to this contracting officer and
the Government approximately $7.4 million             found that no others were languishing
as a result of a cost accounting change. Our          without cause. To enhance management
review disclosed that since September 2003,           oversight and controls, DCMA Philadelphia
the contracting officer failed to take any            added a mechanism to monitor underlying
substantial action to either reach a settlement       audit issues and track disclosure statement
with the contractor or make a unilateral              audits. DCMA Philadelphia also reassessed
determination and recover the amount due to           the contracting officer’s appointment
the Government as a result of the cost                authority and elected to retain that authority.
accounting change.           The contracting          Finally, DCMA undertook an agency-wide
officer’s failure to take timely action               initiative to identify and take corrective
jeopardized the Government’s ability to               action on other instances where contracting
recoup those costs. The contracting officer           officers have not taken timely and
did not comply with DOD Instruction                   appropriate action in response to DCAA
7640.02 when she dispositioned the DCAA               audit reports.
audit report in the contract audit follow-up
system and had not taken final action on that
report. In August 2010, we issued a Notice              United Stated Department of Department of Defense Office of Inspector General
                                                                           (Project No. D2010-DIP0AI-0205.000)
of Concern to the Director, DCMA                                                   Report No. 2011-6-006
                                                                                      March 22, 2011
recommending that the agency take several
immediate actions in response to our
findings.

                                                  i
Table of Contents
Results in Brief                                                          i

Introduction
   Objective                                                              1
   Background                                                             1

Finding
   Untimely Action in Settling a Contract Audit Report                    3
         Background                                                       3
         Our Review                                                       3
         Notice of Concern, Management Actions and Our Response           5
         Other Matters                                                    7

Appendices
   A. Scope and Methodology                                               8
   B. DOD Inspector General Notice of Concern                            10
   C. Defense Contract Management Agency Response to Notice of Concern   13
Introduction
Objective
We conducted this review to determine whether we could substantiate a DOD Hotline complaint
concerning a Defense Contract Management Agency (DCMA) contracting officer stationed in
Philadelphia, Pennsylvania. The complainant alleged that the contracting officer failed to take
action on a 2002 Defense Contract Audit Agency (DCAA) audit report, which reported that a
DOD contractor owed the Government approximately $7.4 million as a result of the contractor’s
cost accounting change.

See Appendix A for details regarding our scope and methodology.

Background
Defense Contract Audit Agency (DCAA)
DCAA performs all necessary contract audits for DOD and provides accounting and financial
advisory services to DOD Components regarding DOD contracts and subcontracts. DCAA
issues reports resulting from several types of audits, such as audits of contractor compliance with
cost accounting standards established by the Cost Accounting Standards Board. DCAA
performs these audits to ensure that contractors adequately describe the practice they use to
estimate, accumulate and record contract costs, and that these practices comply with the cost
accounting standards. When a contractor proposes to change a cost accounting practice, DCAA
will audit the change to determine if it results in increased costs paid by the Government.

Defense Contract Management Agency (DCMA)
DCMA works directly with Defense suppliers to help ensure that DOD, Federal, and allied
government supplies and services are delivered on time, at the projected cost, and meet all
performance requirements. DCMA serves as the in-plant representative for DOD-buying
agencies, both during the initial stages of the acquisition cycle and throughout the life of the
resulting contracts, and administers more than 300,000 active government contracts. DCMA
contracting officer responsibilities include completing the resolution and the disposition of
contract audit reports issued by DCAA on behalf of the Army, Navy, Air Force, Defense
Logistics Agency, and other DOD agencies. The allegation addressed in this report involves a
DCMA office located in Philadelphia, Pennsylvania (referred to as “DCMA Philadelphia” in this
report).

Department of Defense Instruction 7640.02
DOD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports,” August 22, 2008,
prescribes the responsibilities, reporting requirements, and follow-up procedures on audit reports
that DCAA issues. The Instruction (as well as predecessor DOD Directive No. 7640.2,
February 12, 1988) requires contracting officers to complete the resolution and disposition of
DCAA audit reports in a timely manner. Generally, contracting officers should complete the

                                                 1
resolution and disposition of DCAA audit reports within 6 months and 12 months, respectively.
In dispositioning a DCAA audit report, contracting officers must prepare a post-negotiation
memorandum covering the actions they took in response to significant audit report findings,
including the underlying rationale for such actions.

The Instruction also requires that DOD Components, including DCMA, maintain up-to-date
records on the status of actions taken in response to certain types of audit reports defined as
“reportable,” and semiannually furnish the status of those actions to the DOD Inspector General.
DOD Components utilize an electronic system referred to as the “contract audit follow-up
system” for this purpose. Once a contracting officer completes all necessary actions on an audit
report, the contracting officer changes the audit status to “dispositioned” in the contract audit
follow-up system and the audit is subsequently dropped from future reporting to the DOD
Inspector General.




                                                2
Finding
Untimely Action in Settling a Contract Audit Report
We substantiated the allegation that a DCMA contracting officer stationed in Philadelphia,
Pennsylvania, failed to take timely action on a 2002 DCAA audit report in which DCAA
reported that a DOD contractor owed the Government approximately $7.4 million as a result of a
cost accounting change.

Background
On June 14, 2002, DCAA reported that a cost accounting change implemented by a DOD
contractor resulted in $7.4 million in increased costs to the Government. In a
September 17, 2003 letter to the contractor, the contracting officer ruled that the accounting
change was not desirable to the Government, and as a result, the contractor must pay for any
increased costs resulting from the change in accordance with Federal Acquisition Regulation
(FAR) 30.603-2. The contracting officer proposed an amount due to the Government of
$6.9 million, $500,000 less than the $7.4 million originally reported by DCAA based on
additional information that the contractor provided. DCAA agreed with the revised amount.

The September 17, 2003 letter also stated that if the parties could not reach an agreement on the
appropriate amount due to the Government within a reasonable time, the contracting officer was
“…prepared to make a unilateral determination subject to appeal as provided for in the Disputes
clause, FAR 52.233.” However, as of September 2010 (7 years later), the contracting officer had
yet to reach an agreement or issue a unilateral decision.

Our Review
We researched applicable regulations, DOD Instructions, and agency policies. In addition, we
interviewed the contracting officer and several other DCMA and DCAA officials. We also
obtained and reviewed DCMA files associated with this cost accounting change.

FAR Subpart 30.6, CAS Administration, addresses contracting officer responsibilities regarding
the administration of Cost Accounting Standard issues. FAR 30.604 outlines steps that
contracting officers must take to process cost accounting changes, and FAR 30.606 identifies
actions that contracting officers must take to resolve the amount due to the Government for cost
accounting changes. When a contracting officer and a contractor cannot reach agreement on the
cost impact of a cost accounting change, FAR 30.606(c)(6) requires the contracting officer to
issue a final decision in accordance with FAR 33.211 and to unilaterally adjust affected
contracts.

Our review of the DCMA file disclosed that in the 7 years since the contracting officer’s
September 17, 2003 letter to the contractor, the contracting officer had not taken any substantial
action to resolve the cost accounting change and recoup the amount due to the Government in
accordance with FAR 30.606. The contracting officer stated that she met with the contractor
                                                 3
several times over the 7-year period in an attempt to resolve various issues underlying the cost
accounting change, but that the parties could not reach an agreement. The Contracts Director at
DCMA Philadelphia stated that the contracting officer’s workload required her to prioritize many
tasks, and that the officer’s priorities were consistent with agency and customer priorities.

We reject the premise that the contracting officer justifiably placed the cost accounting change,
worth up to $7.4 million, in low priority status over a 7-year period. Failure of the contracting
officer to take timely and effective action in resolving the cost accounting change is inexcusable,
and the extent of the delay could have jeopardized the ability of the Government to recoup the
amount owed. For example, FAR limits the time that the Government can initiate a claim
against a DOD contractor. Also, resolution of audit report issues become more difficult over
time as individuals with a detailed understanding of the issues may transfer or retire, or the
records may become lost.

In neglecting to take timely action on the DCAA audit report, the contracting officer also failed
to comply with DOD Instruction 7640.02, Enclosure 3, paragraph 3(a) [and predecessor DOD
Directive 7640.2 dated February 12, 1988], which requires that contracting officers disposition
audit reports within 12 months. In addition, the contracting officer did not comply with DOD
Instruction 7640.02 when she changed the status of the audit report to “dispositioned” in the
contract audit follow-up system on March 30, 2009. DOD Instruction 7640.02, Glossary, states
that a disposition occurs when the contracting officer determines final action on a cost impact
proposal. As of March 30, 2009, the contracting officer had not determined the final action.
During our review, DCMA acknowledged that dispositioning the audit report was incorrect and
the contracting officer reinstated the audit report in the contract audit follow-up system.

Prior Reporting of Similar DCMA Philadelphia Deficiencies
On April 8, 2009, under Report No. D-2009-6-004, we reported that DCMA Philadelphia
contracting officers did not process Cost Accounting Standard noncompliance audit reports in
accordance with FAR 30.605, Processing Noncompliances. We found that failure of contracting
officers to take timely and effective action in response to Cost Accounting Standard
noncompliance reports caused significant delays in correcting potentially noncompliant practices
and recovering any increased costs due to the Government. Finally, we noted several instances
where DCMA Philadelphia contracting officers did not take timely action on several other audit
reports, and that DCMA lacked adequate management controls for timely resolving audit reports
in accordance with DOD Instruction 7640.02.

Repeated failure of DCMA to take timely action on DCAA audit reports demonstrates the need
for DCMA management to take immediate and substantive corrective actions.




                                                 4
Notice of Concern, Management Actions, and Our Response.
On August 17, 2010, we issued a “Notice of Concern” 1 to the Director, DCMA covering the lack
of timeliness on the part of the contracting officer to settle the audit findings and recoup the
amount due to the Government reported by DCAA. We recommended several corrective actions
(see Appendix B). In an August 30, 2010 memorandum, the Director, DCMA, provided a
comprehensive response to our Notice of Concern which included specific action plans for
recouping the amount due to the Government and improving the agency’s controls to help
prevent reoccurrences (see Appendix C). Since the August 30, 2010 memorandum, DCMA
aggressively implemented several corrective actions. Discussed below is a summary of
management actions DCMA took based on our recommendations and our related responses to
those management actions.

        1. Recommendation: Oversee and ensure the actions needed to settle and recoup
           the amount due to the Government for the contractor’s cost accounting change.

             Management Actions
             On October 25, 2010, the contracting officer issued a final (unilateral) decision in
             accordance with FAR Part 33 and the Contract Disputes Act of 1978, stating in part
             that the contractor owed the Government $6.4 million as a result of the cost
             accounting change. The contracting officer reduced the amount due from
             $6.9 million to $6.4 million based on the elimination of interest due. Based on advice
             from DCMA Headquarters, the contracting officer determined that the Government
             could not charge the contractor for accumulated interest in this case. In
             February 2011, the contracting officer transferred the amount due to the Defense
             Finance and Accounting Service for collection.

             Our Response
             The management actions satisfy the recommendation. No additional comments are
             required. We take no exception to the revised amount due to the Government of
             $6.4 million.

        2. Recommendation: Determine that no other DCAA audit reports assigned to the
           contracting officer for action are languishing without cause.

             Management Actions
             DCMA performed a review of the contracting officer’s workload and determined that
             no other audit reports assigned to the contracting officer were languishing without
             cause.




1
 A Notice of Concern is issued to alert DOD management of significant findings that require immediate attention.
By issuing a Notice of Concern, DOD management officials can take proactive steps to mitigate the reported issue.

                                                        5
   In addition, with assistance from DCAA, DCMA undertook a “Cost Recovery
   Initiative,” to identify all unresolved audit issues agency-wide and is actively track
   the resolution of each audit issue. This initiative is in progress.

   Our Response
   The Director, DCMA’s comments are responsive. No additional comments are
   required. Under a separate review (Project No. D2011-DIPOAI-0188.000), we will
   evaluate the appropriateness of efforts used to implement the “Cost Recovery
   Initiative,” and determine whether DCMA established effective controls agency-wide
   to ensure that contract audit reports are resolved and dispositioned in a timely
   manner.

   We did not reevaluate the individual contracting officer's workload to verify that the
   officer had no other languishing audits. Instead, we will focus on DCMA’s efforts to
   correct this issue on an agency-wide basis under the Cost Recovery Initiative.

3. Recommendation: Evaluate and reassess the appointment authority previously
   granted to the contracting officer under Federal Acquisition Regulation 1.603,
   Selection, Appointment and Termination of Appointment.

   Management Actions
   The Director, DCMA reassessed the appointment authority of the contracting officer
   and decided not to terminate the authority.

   Our Response
   The Director, DCMA’s comments are responsive. No additional comments are
   required. For the record, we asked DCMA to provide the basis for its decision and to
   let us know whether DCMA considered other appropriate administrative action.

4. Recommendation: Evaluate and reassess the managerial oversight practiced by
   the DCMA Philadelphia office which enabled a significant amount due to the
   Government to languish over 8 years.

   Management Actions
   DCMA evaluated the management oversight at Boeing Philadelphia and found that
   the agency lacked a mechanism for tracking underlying audit issues. Accordingly,
   DCMA worked in concert with DCAA to develop an agency-wide mechanism for
   effectively tracking timely resolution. DCMA has since added this mechanism.

   Our Response
   The Director, DCMA’s comments are responsive. No additional comments are
   required. We will review the effectiveness of the mechanism as part of our review of
   the Cost Recovery Initiative.


                                         6
       5. Recommendation: Reestablish a system of management controls at the DCMA
          Philadelphia office to identify, investigate, and resolve DCAA audit reports in
          accordance with the FAR and DOD Instruction 7640.02.

          Management Actions
          DCMA believes that it has an appropriate system of management controls. However,
          based on its reassessment, DCMA found that it needed to track disclosure statement
          audits (5-digit audit code 19100) even though they are not reportable under DOD
          Instruction 7640.02. Accordingly, DCMA asked DCAA to include disclosure
          statement audits within the contract audit follow-up system, and DCMA has begun
          tracking these audits.

          Our Response
          The Director, DCMA’s comments are responsive. No additional comments are
          required. We will review the effectiveness of management controls agency-wide as
          part of our review of the Cost Recovery Initiative.

Other Matters
The August 30, 2010 DCMA letter (Appendix C) recommends that the Office of the Inspector
General revise DOD Instruction 7640.02, Policy for Follow-up on Contract Audit Reports, to:

   •   provide new criteria for the disposition of contract audit reports issued on Cost
       Accounting Standard disclosure statements and Cost Accounting Standard
       noncompliance audits; and

   •   require the tracking of contract audit reports concerning audits of contractor disclosure
       statements.

On March 3, 2011, we initiated Project No. D2011-DIP0AI-0113.000 to review, and where
necessary, revise DOD Instruction 7640.02. We will consider DCMA’s recommendations as
part of the work performed under this project.




                                                7
Appendix A. Scope and Methodology
We reviewed the DOD Hotline complaint to determine if we could substantiate the allegations.
As part of our review, we:

   •   obtained and reviewed data included in the contract audit follow-up system for the
       DCMA Philadelphia office;

   •   obtained and reviewed DCMA contract file documentation;

   •   interviewed contracting officials, including the contracting officer addressed in the
       complaint, other DCMA Philadelphia officials, and DCAA officials involved in the issue;

   •   coordinated with the DOD Hotline complainant; and

   •   reviewed applicable laws, regulations, DOD Instructions, and DCMA policies and
       procedures.

We performed this review from April 2010 through February 2011.

Use of Computer-Processed Data
We did not rely on computer-processed data as part of our review.

Prior Coverage
In the last 5 years, we have issued five other reports on DCMA contracting officer actions in
response to DCAA audit reports.

   •   Department of Defense Inspector General Report No. D-2010-6-002, “Report on
       Allegation of Unsatisfactory Conditions Regarding Actions by the Defense Contract
       Management Agency, Earned Value Management Center,” July 28, 2010.

   •   Department of Defense Inspector General Report No. D-2009-6-008, “Report on Hotline
       Complaint Regarding the Actions by a Contracting Officer at the Defense Contract
       Management Agency, East Hartford Office,” August 31, 2009.

   •   Department of Defense Inspector General Report No. D-2009-6-004, Defense Contract
       Management Agency Actions on Audits of Cost Accounting Standards and Internal
       Control Systems at DOD Contractors Involved in Iraq Reconstruction Activities,”
       April 8, 2009.



                                                8
•   Department of Defense Inspector General Report No. D-2007-6-010, “Report of Hotline
    Allegation Regarding the Reimbursement of Settlement Costs at Defense Contract
    Management Agency Melbourne,” September 28, 2007.

•   Department of Defense Inspector General Report No. D-2007-6-009, “Actions on
    Reportable Contract Audit Reports by the Defense Contract Management Agency's
    Northrop Grumman El Segundo Office,” September 28, 2007.




                                          9
Appendix B. DOD Inspector General Notice of
Concern
                                      INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                        400 ARMY NAVY DRIVE
                                   ARLINGTON, VIRGINIA 22202-4704




                                                                          AUG 17 2010

   MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                   AGENCY

   SUBJECT:      Notice of Concern - Timeliness in Addressing Contract Audit Follow Up
                 on a D CAA Report to OCMA Boeing Philadelphia

           Our review ofa Department of Defense Hotline complaint has identified a
   reportable Dcfense Contract Audit Agency contract audit report that has languished with
   Defense Contract Management Agency divisional administmtive contracting officcrs
   s inec 2002, Timely resolution of contract audit reports is critical to protect the
   Department and the taxpayer, particularly a repOli that cou ld have resulted in significant
   net savings to the United States Governmcnt. Dclays rclating to invcstigations, litigation,
   and req'ues ts to delay administl'fltive actions until sllch activities are settled are
   understandable. Reports languishing due to ' other priority workload' and unwarranted
   contractor delays demand corrective action.

          In Audit Report No. 634 1-2002DI9500001 , datcd June 14,2002, the auditor
   reported a cost impact of$7.4 million resulting from a January 1,2001 unilateral cost
   accounting change implemented by a Boeing Company business segment. Based in part
   on the DCAA findings, the divisional administrativc contracting officer issued on
   September 17,2003 a determination leiter to the contractor identifying $6.9 million in
   aggregate increased cost. The divisional administrative contracting officer deemed the
   changes adequate and compliant, but not dcsirablc to (he Government. Under sllch a
   determination, the United States Government does not pay increased costs. The
   Septembel' 17, 2003 lcttcr also stated that i r the parties could not reach agreement on an
   appmpriate cost adjustment within a reasonable time, the divisional administrative
   contracting officer was " ... prcpared to issue a unilateral determination subject to appeal
   as provided for in the Disputes clause, FAR 52.233."

           We Found thal in thc eight years since the contract audit repOit was issued; the
   divisional administrative contracting officer has neither (i) reached a settlcment with
   JJoeing nor (ii) made a unilateral determination in accordance with FAR 52.233-1 , hence
   failing to recoup the $7.4 million in increased cost.

         DoD Instruction 7640.02 statcs contracting officers shall reach settlement within
  ·one year of receiving an audit report with find ings. Where mutual agreement between




                                                   10
thc contractor and government contracting officers is not achieved, contracting officials
must providc the contractor a final decision. Regarding claims filed to contractors in the
form of a fin al decision, the Contrnct Disputes Act states, "Each claim by the govcrnment
against a contractor rclating to a contract shall be submitted within 6 years after the
accrual of a claim." Delays in rcsolving potcntial disputcs can leave contr~et ing officers
holding unasserted claims beyond the 6 year statute of limitations. Exceeding the 6 year
period can jcopardize the contracting onicer's ability to recover increased costs on
United States Government contracts.

       With regard to thc languishing audit report identified at the Boeing Philadelphia
contract management office, we recommend DCMA management:

       I . Oversee and cnsurc thc actions takcn by the contract management office to
           settle and recover the approximately $7.4 million outstanding cost impact
           identified in DCAA ReportNo. 6341-2002019500001 comply with FAR 30.6
           CAS Administration and, whcrc ncccssary, FAR 33.2 Disputes and Appeals.

       2. Take appropriate corrective actions to:

              a. Determine that no other contract audit reports received by the divisiona l
                 administrative contracting officer since 2002 are languishing without
                 cause.
              b. Evaluate and reassess the Appointment uuthority previoLisly grunted the
                 divisional administrative contracting officer tinder FAR 1.603 Selection,
                 appointment and termination ofappointment.
              c. Evaluate and reassess the managedal oversight practiced by the Boeing
                 Philadelphia contract management office that enabled a potential
                 savings of approximately $7.4 million to the Unitcd States Government
                 that has languished for over 8 years.

      3.   Re~establish  a system of management controls <It the Boeing Philadelphia
           contract management office to identify, investigate and resolve contract audit
           reports in accordance with the rcquirement of the Federal Acquisition
           Regulation and 000 Instruction 7640.02

        We issue a Notice of Concern to alert 000 management of significant findings
that we believe requ ire immediate attcntion. Thc fi nding that generated this Notice of
Conccrn and any corrective action taken by management will be included in an upcoming
010 draft rcport. By issuing a Notice of Concern, 000 management can take proactive
steps to mitigate the reported issue.




                                            11
      Please provide a response to our recommendations by August 31, 2010. lfyou
have any questions regarding this memorandum, please contact me at (703) 604~8877 01'
Ms. Meredilh Long-Morin at (703) 604-8739 (rneredith.morin@ldodig.mil).



                                        ~-/(. )~
                                       Carolyn R. Davis
                                       Assistant Inspector General
                                        for Audit Policy and Oversight




                                             12
Appendix C. Defense Contract Management
Agency Response to Notice of Concern

                      DEFENSE CONTRACT MANAGEMENT AGENCY
                                         6350W<jlker Ear\e,Sllite30P
                                      l\!eX<lodria. Vitglnia223tO+3241
                                                                                   AUG 3'02010

       MEMORANDUM FORASSISTANTINSPECTORGENERAL FOR AUDIT
                       POLICY AND OVERSIGHT

        St]BJBCT:Noti<:e of·Conoem ~Timeljhess ill Addressing Contract A\ldit Follow
                  Up ,(CAFU) on DCAA Report to DOMA Boeirlg Philadelphia

             Thisisln.xesponse to your.;\ugus,t 1,7, 2Q10NotiCe of COM ern l'cgardingthe
        tim~litless
                 of actions t!lk~n by bCMABoeing PhiladeJphiato recoup. the $7;4 million
       Qfincreaseq CQsts.f'ornon>fdesirableaccountingchanges reported in DCAA Audit
       Report No. 6341",2002D19500001.dated June 14,2002.

                   lfuUYlC\greeti'tat your findings represPtlt a significant def1ciencyin our
        controlproo~dqr~sfQrresolYih&DCAA.                 aurl.jt findings. DCMA musterrsiJre that all
       .pudit findings andreo.ommendations are resolved in a thliely manner cOl)sistentwith
        1\.'l&alstatlltes,regu1ati()llS~ andDepaftment of Defcns(} tDQD) policy.DCMA has
       ti;1l(enaggressiveactionsovertht; past two yefirs. to redl,tc{Jthe rmmbe:r. Q:fovetage
        lIrtl'csolved ·audits ... ·This fi.sgal Y,ear we re9.J.1cfjd· the·.l111moerof ovefageunresolved
        a\'lciifs lr9m453 fp .386 as ofJt~n¢JO, 201 O.WhHe we have.:iUl1d(;lptbgress; the
       I\gencycofitinues1:Q hiIVel1il11ha~c(!ptabJetiuh1ber ofbVerage:audits. As a result, we
       rep<)tted Qye.t;uge audits as a material weakness in the Agenqy' s:20 10 Sfatetllent of
       Assurance and made a conlmitment to the Department that we wilLre:duceihc
        overage aiIclits by the end of nf}Qal year 2m 1.

                To improve. performance. we are tar&{)ting the oldest audits first, InApril
        2.oIO,lpexslJi1allyteviewed all.6ftheoveragi;1Etuditsreported in ·the CAFl]systel11
       tbfitwere ,morethal1four yeats overage fbr "dispqsitiol1 /' A$ Y9U laWw, t110 Boeing
        Philadelphia Divisional AdministlJ;ltIve COlltractillg Officer (BACO) had
       iirtappropriateIy closed the subjeqtau!:Ht it) CABO. As a re~1Ult,thatauditwasnot
        includedi!lJllyrevieW;}J.i $epNml,et, we will Jeview theoVetage audits mOre than
       t11reeye.a~s (lverag~ tQt"disJJ~sition" and the ~'tlntes()lyed;}alldits lhat areoncyear
       past the ·~udit teportdate. In ridditiol1we havetasked thc!woiklbrl:;e toprovidelJS
       phIllIS f'Orreducingthe overage'audits :mQr~thaIl two.ycf!nroverage fQr"disPQsition)'
       Acopynfthattaskingmemor~ndum i~ attached. Th~JIlemOrandu.rn also·alerts the
       workforcea;boutthe subsl:lquent revieWs we have schedul¢d fOr l'is:cal year 2.0 11.




                                                           13
                                                                                     2

       Last year, I established an Agency-wide CAFU quality assurance plan. The
plan implemented mandatory standard CAFU perfonnance objectives for our
contracting workforce, key intehwl controls for managing CAFU and, annual
assessments of actions taken and planned to resolve and disposition audit fmdings.
The plan also pl'Ovides for lin aSSessment of our contracting officers' requisite
speqialized knowledge, experience, training, business acumen, and judgment to
execute their duties. We will have the results of our first annual assessments by
December 30,2010.

         Clearly, your audit findings highlight the need for more proactive oversight.
Based on our assessment of your potential findings at DCMA Boeing Philadelphia,
we initiated discussions with our Boeing Defense Services DACO in May. An
;:tdditiona194 Untes 0 lved CAS accounting changes cost impacts were identified that
were not tracked and not required to be tracked in the CAFD system. As such) we
learned that we cannot rely on the CAFUsystem to track unresolved cost impacts as
discussed below.

       In a~cordance with the DoDI 7640,02, Policy for FoUow~Up on Contract
AuditReports, CostAccounting Standards (CAS) noncompliance audits (DCAA
activity code 19200) are "dispositioned" in CAFU when the administl'ative
contracting officer (ACO) issues a writtenfmal determination of compliance or
noncompliance.. Any a$sociatedCAS cost impact al,ldit reports are tldispositioned"
when the ACO executes a bilateral modification, thattesolves the CQst impact or
issues a final decision and unilaterally adjusts the colltracts in accordance with FAR
30.606, Resolving CosUmpacts.. In the period between disposition of the CAS
noncf:unpliance report and receipt ofthe audit report on the CAS cost impact, eAFU
does not trackthe unresolved cost impacts. In addition, audits on contractors'CAS
Disclos'W'eStatements (DCAA activity code 19100) arC not even tracked in eAFu.
Lik:etne CAS noncompliance audits, many of these audits subsequently result ill
required cost impacts.

       SOJ11e of the ney,rly identified 94 unresolved cost impacts date back to
accQtW:tirigchanges made as early as 2000. For most, the contractor's initial cost
impact proposals were inadequate and the ACOs have be~n attempting to get
adequate cost impact proposals. We are working jointly with DCAAtoexpedite
resolution of these cost impacts,

        Based on this, I amtakingimm~diate action to fully assess the severity of this
situation. As shown in the attached tasking memorandum, w~ are implementing a




                                          14
three phase strategy to :ip.Uy assess the severity of, and reasons for, this situation.
Phase one will identify the comprehensive list of unresolved Gost impacts. Phase two
will identify the unresolvedcQst'impacts with statute of limitations issues and reasons
contractual remedies were not pursued. Phase three will be to put in place a resolution
plan based on the findings from phases one and two.

         As we proceed, we will work with DCAA to ensure that we have adequate
controls and procedures to prevent future occurrences. While the; Department
currently tracks the resolution of individual audits, the Department does not cUlTently
track the overall resolution of the underlying issue. As the six year stahlte of
Hmitations applies to the resolution of the underlying issues, we are working with
DCAA to develop a mechanism to effl:lctively track timelY resolution of the
underlying issues.

         While we can and will develop a tracking mechanism, the Department would
be best served by a Department-level tracking mechanism as this situation is not
unique to DCMA. In the short tenn, we recommend that you· consider revising the
DoDI7640.02 to require tracking CJfthe CAS Disclosure Statement audits (DCAA
activity code 19100) and provide new criteria for the "disposition" of CAS
nonCOlltpliance audits (DCAA 19200) andCAS Disclosure Statement audits.
Specifically, we rec()nuuend that the "disposition" instructions for both be either an
ACO'iwritten detennination that a cost impactls required or receipt ofllie audit
report on the resulting cost impact For long-terID, we recommend that you consider
adding a feature to CAFU to track resolution of the underlying tiudit issue.

       With regard to the languishing auditreport you identified at Boeing
Philadelphia, I fully agree with your recommendations as discUl~sed below.

       OIG RecOlnmendation 1: Oversee and ensure the actions taken by the contract
managenlent office to settle and recover the approximately $7.4 million outstanding
cost impact identified in DCAAReport No. 6341-2002D19500001 comply with FAR
30.6, CAS Administration and, where necessary FAR 33.2, Disputes and Appeals.

        DCMA Response: Concur. The DirectQr, Contracts PolicY, and aHQ
Associate General Counsel will conduct weekly status meetings with the CMQand
the action will be subjected to an Executive Director, ContJ.'(.tCts,board ofreview to
ensure the resu.lting action complies with the referenced FAR requireUlents.




                                            15
                                                                                   4

       OIG Recommendation 2a: Take appropriate corrective actions to determine
that no other contract audit reports received by the DACO since 2002 are languishing
without cause.

       DCMA Response: COllC\lt, We will work jointly with DCAA to ensure that
we identify all unresolved audits and underlying audit issues at DeMA Boeing
Philaqelphia, including those assigned to the DACO. In addition, we will actively
monitor the resolution of the audits and audit issues.

      OIG Recommendation 2b: Take appropriate corrective actions to evaluate and
reassess the Appointment authority previously granted to the DACO under FAR
L6()3,Selectioll, Appointment, and Termination of Appointment.

       DCMA Response: Concur. The Contracts Director for the Operations
Directorate will assess theDACO'sappointment. consider whether any actiops should
be taken, andprovid~a recommendation to the Executive Director, Contracts for
decision.

      OIG~commendation 2c: Take appropriate corrective actions to evaluate and
reaS$ess the management oversight practiced by theBoeing Philadelphia contmct
managementoffice that enabled a potential savings of aPPl.'oximately $7.4 million to
the United St~tes Government that has .languished for over 8 years.

        DCMAResponse: Concur. WewiU evaluate and reassess the management
Qversightat BpeiJ;).gPhiladelphia. Ourpolicy requires the DACO to get the CMO
Contracts Director's approval of actions planned and taken to disposition audits in
CAFU,As a part of om: assessment, w~ will detennine if the CMO complied with the
policy and whether additionalcontrols·are needed to ensure that audits are
apprQpriate1y dispositioned. However~asdiscussed above? we will also develop a
mechanism for tracklng the unresolved Wlderlying audit issues to ensure appropriate
visibility·aIldtimely resolution.

       OIGRecommendatiqt13; Re-establish a system of management controls at the
B(}eblg Philadelphia contract management office to Identify~ investigate and resolve
contract audit reports in accordance with the requirements of the Federal Acquisition
RegulAtion arid DoD Instruction 7640.02.




                                           16
                                                                                           5

      Dc;MJ-\ Respopse: Concllr. While. w¢ geperally believe that 6urCAFUpoHcy
provides the:appropriate 1113nagitltJ~ntc()rttr()ls, we will reassess the pOlicy a09
determine if additionalc.ontrols crud }Jl~ocedures are needed.

       FjnaUr, I thJnldt isonce.again wort1;tnQtiu!?thataltbough disappointing, the
is:iues YQuhave Jdertit1eg <Ire 9fhm complexandJilllc consuming to. resolve. It is
isslres Hkt? this thatQhdersCQre thc.Jmpoftance () f the actj on~" 'Ne are taking to grow the
wQrkforceandt1nstlr~ltjsttaii1edand Cflpable, WQcoll]:inuedUIgently gown this path
to recovery. Ficase direct. ~lYc{)nunents orquest1ons tQRo!5iIl Schulze, Director,
Qontra.cts Polic}". at (703) 428,,17.0801' fQbin.schulze@dc:ma.miL




                                              17
